OIG Audit Report GR-80-08-004

Office of Justice Programs Bureau of Justice Assistance Grants Awarded to City of Fort Worth, Texas
Audit Report GR-80-08-004
September 2008
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division, has  completed an audit of the Byrne Justice Assistance Grant (JAG) Program grant  numbers 2005‑DJ‑BX‑0354 and 2006‑DJ‑BX‑1180 in the amounts of $778,785 and  $444,794, respectively. These grants  were awarded by the Office of Justice Programs (OJP), Bureau of Justice  Assistance (BJA), to the City of Fort Worth  (City), which acted as the cognizant agency and fiscal agent for the six  disparate jurisdictions of Tarrant County and the cities of Arlington, Fort Worth, Haltom, Hurst,  and North Richland Hills. The jurisdictions entitled their  collaborative effort the Tarrant County  Area Justice Assistance Grant Project.  The purpose of the JAG Program is to  allow state and local governments to support a broad range of activities to  prevent and control crime and to improve the criminal justice system. JAG Program funds can be used to pay for  activities such as training, personnel, equipment, supplies, contractual  support, and information systems for criminal justice. 
  Since  1984, OJP has provided federal leadership in developing the nation's capacity  to prevent and control crime, improve the criminal and juvenile justice  systems, increase knowledge about crime and related issues, and assist crime  victims. The BJA  mission is to provide leadership and assistance in support of local criminal  justice strategies to achieve safer communities. The BJA's overall goals are to:  (1) reduce and prevent crime, violence,  and drug abuse and (2) improve the functioning of the criminal justice system.
 The JAG Program replaced the Byrne Formula and Local Law  Enforcement Block Grant (LLEBG) Programs and simplified the administration  process with a single funding mechanism.  The formula used to allocate JAG Program funds is the same as was used  under the LLEBG Program and is based on population and crime statistics, in  combination with a minimum allocation, to ensure that each state and territory  receives an appropriate share of the funding.  Disparate jurisdictions are required to submit  a joint application for the aggregate of funds allocated to the units of local  government and to receive JAG Program funds in accordance with agreements  established between the disparate local and county jurisdictions. 
The purpose of this audit was to  determine whether reimbursements claimed for costs under the grant were  allowable, supported, and in accordance with applicable laws, regulations,  guidelines, and terms and conditions of the grant and to determine program  performance and accomplishments. The  objective of our audit was to review performance in the following areas:  (1) the internal control environment; (2) drawdowns;  (3) grant expenditures; (4) personnel costs; (5) budget management and  control; (6) property management; (7) program income;  (8) Financial Status and Progress Reports; (9) program  performance and accomplishments; and (10) monitoring of subgrantees. As shown in the table below, the City was  awarded $778,785 for FY 2005 and $444,794 for FY 2006, for a total of  $1,223,579.
TARRANT COUNTY AREA JUSTICE ASSISTANCE GRANTS PROJECT 


Award number
Award         Start Date
Award         End Date
Award         Amount


2005-DJ-BX-0354
10/1/2004
9/30/2008
$778,785


2006-DJ-BX-1180
10/1/2005
9/30/2009
444,794


Total
$1,223,579


Source:  OJP
We tested compliance with what we consider  to be the most important conditions of the grant. Unless otherwise stated, the criteria we  audited against are found in the OJP Financial Guide and the award documents. We tested the City’s grant expenditures,  monitoring of subgrantees, Financial Status Reports (FSRs) and Progress  Reports, drawdowns, program income, budget and management control, and program  performance.
Based  on our analysis and testing of the City’s and its subgrantees’ documentation,  we concluded the following:

Risk was deemed to be high related to grant  administration and appropriate accounting for the use of grant funds.
There is a risk that equipment purchased with  grant funds would not be adequately accounted for under the current property  accountability process.
The City did not report program income of its  subgrantees on the FSRs.
The City did not accurately report expenditures  of its subgrantees on the FSRs.
The City is not monitoring its subgrantees  effectively as required by the OJP  Financial Guide.

These items are  discussed in detail in the Findings and Recommendations section of the  report. Our audit objectives, scope, and  methodology are discussed in Appendix I.



 




Return to OIG Home Page